APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(July 02, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Judgement in a Criminal Case in the
United States District Court for the
Southern District of Florida Miami
Division
(May 23, 2018). . . . . . . . . . . . . . . App. 17

App. 1

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
[Filed July 02, 2019]
No. 18-12196
Non-Argument Calendar
D.C. Docket No. 1:15-cr-20540-KMM-1
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff - Appellee,
)
)
versus
)
)
SERGIO NEFTALI MEJIA-DUARTE,
)
a.k.a. Neftali,
)
a.k.a. Compa,
)
a.k.a. El Doctor,
)
a.k.a. Cunado,
)
)
Defendant - Appellant. )
______________________________________ )
Appeal from the United States District Court
for the Southern District of Florida
Before TJOFLAT, MARTIN, and NEWSOM, Circuit
Judges.

App. 2
PER CURIAM:
Sergio Neftali Mejia-Duarte was convicted by a jury
of a single count of conspiring to distribute five or more
kilograms of cocaine in violation of 21 U.S.C. § 959, the
District Court imposed a sentence, and Mejia-Duarte
now appeals both his conviction and his sentence.
Mejia-Duarte was extradited to the United States
from Honduras pursuant to an extradition treaty (the
“Treaty”) between the two countries. See Convention
Between the United States and Honduras for the
Extradition of Fugitives from Justice, Hond.-U.S., Jan.
15, 1909, 37 Stat. 1616 [hereinafter Honduras Treaty].
The Honduran extradition order allowed the United
States to “impute” to Mejia-Duarte only events that
occurred after February 27, 2012.1 As described below,
the Treaty and the extradition order affect our analysis
of both the conviction and the sentence.
As to the conviction, Mejia-Duarte argues that
(1) the District Court admitted evidence whose
probative value was substantially outweighed by the
risk of unfair prejudice, see Fed. R. Evid. 403, and
(2) the evidence presented at trial was insufficient to
support his conviction for post!February 2012 conduct.
As to the sentence, he challenges the District Court’s
(1) factual finding that he obstructed justice, see U.S.
Sentencing Guidelines Manual §3C1.1 (U.S. Sentencing

1

The precise date is not relevant. So for the reader’s ease, we omit
the date and simply refer to post! and pre!February 2012 conduct.

App. 3
Comm’n 2006),2 and (2) legal conclusion that his
sentence could be enhanced for a variety of conduct
that occurred during or before February 2012. We
affirm on all grounds.
I.
The drug conspiracy with which Mejia-Duarte was
charged lasted from 2004 until at least 2014. The
Government presented six witnesses, five of whom
were co-conspirators and one of whom was a Colombian
law-enforcement official. Of the co-conspirators, some
supplied the cocaine from Colombia, some received the
cocaine in Central America, and some ensured the
cocaine reached the Mexican cartels. The coconspirators had never met each other. At trial, they
explained how the drug-trafficking operation worked
and testified that Mejia-Duarte was one of the
conspirators. The Government elicited detailed facts of
the conspiracy’s operation. It did so primarily to
establish that the criminal co-conspirators corroborated
each other’s testimony on nuance of the conspiracy that
could be known only if it was true.
We analyze Mejia-Duarte’s Rule 403 argument and
then his sufficiency challenge.

2

Though a district court does not automatically apply the version
of the Guidelines in effect at sentencing, see Peugh v. United
States, 569 U.S. 530, 539, 133 S. Ct. 2072, 2082 (2013), the parties
do not contest the District Court’s application of the 2016
Guidelines.

App. 4
A.
Mejia-Duarte objects to the admission of certain
testimony by three co-conspirators. These coconspirators testified about a drug war between MejiaDuarte and a rival drug lord. As part of the drug war,
the rival supposedly kidnapped and killed the wife or
girlfriend of Mejia-Duarte’s partner (which she was is
unclear from the record). In response, Mejia-Duarte
hired a bodyguard. The rival later turned up dead.
Mejia-Duarte contends, in brief, that the admission of
this evidence created a risk that the jury punished him
not for the indicted conspiracy but for Mejia-Duarte
murdering the rival. As such, Mejia-Duarte says, the
evidence should have been excluded under Federal
Rule of Evidence 403.
Rule 403 permits a district court to exclude
otherwise relevant evidence when the “probative value
is substantially outweighed by a danger of . . . unfair
prejudice.” Fed. R. Evid. 403. We review a district
court’s evidentiary rulings for abuse of discretion.
Shealy v. City of Albany, 89 F.3d 804, 806 (11th Cir.
1996) (per curiam). As described below, the District
Court did not abuse its discretion because MejiaDuarte makes a mountain out of a molehill as it relates
to the risk of unfair prejudice. To conduct a Rule 403
analysis, we assess the evidence’s probative value, then
assess the risk of unfair prejudice, before balancing
them against each other.
Start with the evidence’s probative value. The heart
of Mejia-Duarte’s defense to the jury was that the
Government presented its case through unreliable
witnesses, each of whom was a criminal and each of

App. 5
whom had an incentive to perjure himself favorably
toward the Government in hopes of receiving a
sentence reduction for himself. See Fed. R. Crim.
P. 35(b) (authorizing sentence reductions for
defendants that provide the Government with
“substantial assistance”).
The Government responded to this defense by
arguing that the witnesses must have testified
truthfully because each witness’s testimony was
corroborated by the other witnesses’ testimony. As the
prosecutor argued in closing, “The reason we presented
that other evidence is so you can evaluate how truthful
people are being. Are they telling the truth?” He went
on: “You . . . know that they were telling the truth by
the little things that matched up.” And just to be sure
the jury got it, he went on again: “They couldn’t have
gotten together and decided, hey, let’s create some little
detail, make it interesting, that matches up.” Indeed,
the prosecutor’s entire closing argument revolved
around a physical chart that he displayed for the jury.
The chart summarized corroboration among the six
witnesses on ten different aspects of testimony. And
two of those aspects were the bodyguard and the drug
war with the rival.3
In summary, the Government used the evidence
about the bodyguard and the drug war with the rival to
show that the witnesses corroborated each other’s
3

The others were knowledge of (1) Mejia-Duarte’s nicknames,
(2) the trafficking routes, (3) the involvement of Mejia-Duarte’s
brother-in-law, (4) the use of helicopters for trafficking, (5) the
Colombian suppliers, (6) the Mexican cartels, and (7) two other coconspirators.

App. 6
testimony. That corroboration was crucial to convincing
the jury that it could trust the criminal witnesses.
Let’s discuss prejudice. For exclusion of this
corroborating evidence to be proper, its “probative
value” must be “substantially outweighed” by the risk
of “unfair prejudice.” See Fed. R. Evid. 403.
Mejia-Duarte cannot show that any such risk was
present—something he implicitly admits and
something that our review of the record confirms—let
alone that it substantially outweighed the evidence’s
probative value. Mejia-Duarte’s theory is that
admission of this testimony created risk that the jury
would convict him for a bad act not alleged in the
indictment—namely, the rival’s murder. But this
theory is belied by Mejia-Duarte’s own brief.4 Even if
the jury could infer from this testimony that the rival
was murdered, it could not reasonably infer that MejiaDuarte had anything to do with that murder. Only one
of the three witnesses refers to a “killing,” and nothing
about the evidence connects Mejia-Duarte to the death.
So there was no real risk that the jury convicted Mejia4

See Def.’s Br. at 34 (“[T]he summary of [the first co-conspirator’s]
testimony is that [the rival] kidnaps and kills [the partner’s] wife
and that starts a war and [the partner] calls [a third party] to send
[the bodyguard] to be available for the war. Nothing here about
[Mejia-Duarte] killing [the rival] in El Salvador.”); id. at 35 (“To
summarize [the second co-conspirator’s] testimony, [the rival] kills
[the partner’s] girlfriend, a war starts, [the rival] dies or is killed
in El Salvador, date unknown and [Mejia-Duarte] is at ease
because the girlfriend’s murderer is dead.”); id. at 36 (“A summary
of [the third co-conspirator’s] testimony boils down to: rumors in
Honduras about [the rival] and [Mejia-Duarte] fighting, nothing
about killings in Honduras, El Salvador or elsewhere.”).

App. 7
Duarte on this basis, instead of for the crime for which
he was indicted and tried.
Where does all that leave us? The evidence was
relevant to a necessary part of the Government’s case:
witness credibility. And the risk of unfair prejudice was
almost non-existent. As such, the District Court did not
abuse its discretion in admitting the evidence.
We turn to our second task in assessing MejiaDuarte’s conviction: whether the evidence supports it.
B.
Mejia-Duarte was convicted of a single count of
conspiring to distribute five or more kilograms of
cocaine. The Government must prove “that a
conspiracy existed, that the defendant knew of it, and
that, with knowledge, the defendant voluntarily
became a part of the conspiracy.” United States v.
Alvarez, 755 F.2d 830, 853 (11th Cir. 1985). Due to the
extradition order, moreover, the Government was
required to prove that Mejia-Duarte knowingly and
voluntarily participated in a conspiracy after February
2012. The Government must prove each of these
elements beyond a reasonable doubt. United States v.
Louis, 861 F.3d 1330, 1333 (11th Cir. 2017).
We review de novo the sufficiency of evidence to
support a criminal conviction. United States v.
Williams, 865 F.3d 1328, 1337 (11th Cir. 2017), cert.
denied, 138 S. Ct. 1282 (2018). We view the evidence in
the “light most favorable to the jury’s verdict.” Id. To
reverse, we must conclude that “no reasonable trier of
fact could have found guilt beyond a reasonable doubt.”

App. 8
Id. (quoting United States v. Walker, 490 F.3d 1282,
1296 (11th Cir. 2007)).
The evidence
conviction.

here

supports

Mejia-Duarte’s

As described above, five co-conspirators testified as
to the existence of a conspiracy to distribute cocaine.
And at least two co-conspirators testified as to multiple
quantities shipped in excess of five kilograms. The only
real question is whether Mejia-Duarte knowingly and
voluntarily partook in that conspiracy at some point
after February 2012. We refuse to disturb the jury’s
finding that he did.
The Government presented sufficient evidence of
Mejia-Duarte’s involvement. To be sure, it presented no
smoking gun. Nor did it need to. See United States v.
Vernon, 723 F.3d 1234, 1273 (11th Cir. 2013) (“Because
the crime of conspiracy is predominantly mental in
composition, it is frequently necessary to resort to
circumstantial evidence to prove its elements.” (quoting
United States v. Toler, 144 F.3d 1423, 1426 (11th Cir.
1998))). Multiple witnesses testified that Mejia-Duarte
and his partner were in fact co-conspirators. Two
witnesses described trafficking with Mejia-Duarte
through the partner. Cf. United States v. Sosa, 777
F.3d 1279, 1290 (11th Cir. 2015) (holding that the
knowledge element is satisfied with sufficient proof
that the defendant knew the “essential nature of the
conspiracy” (quoting United States v. Miranda, 425
F.3d 953, 959 (11th Cir. 2005))). Two witnesses
described being present at meetings in which MejiaDuarte proposed or planned trafficking. Cf. id. (holding
that the voluntariness element is satisfied with

App. 9
sufficient proof that the defendant acted to “further[]
the purpose of the conspiracy” (quoting Vernon, 723
F.3d at 1274)). And all this evidence was taken from
events that occurred after February 2012. MejiaDuarte offers us no reason to view this testimony as
“unbelievable on its face.” See Calderon, 127 F.3d at
1325 (quoting United States v. Rivera, 775 F.2d 1559,
1561 (11th Cir. 1985)).
In short, Mejia-Duarte’s presence at the meetings,
combined with testimony that he was in fact a
conspirator, allowed the jury to find Mejia-Duarte’s
knowing and voluntary participation in the conspiracy
after February 2012.
We now turn to his sentence.
II.
Mejia-Duarte offers two grounds for vacating his
sentence: (1) the District Court erroneously credited
unreliable testimony when it imposed an enhancement
for obstruction of justice, and (2) it violated the rule of
specialty when it punished him for conduct that
occurred during or before February 2012.
A.
The District Court imposed a two-level
enhancement for two episodes of obstruction, both of
which Mejia-Duarte contests. Because we affirm the
enhancement on the first episode, we do not reach—or
even describe—the second episode.
A co-conspirator testified during trial about an
interaction he had with Mejia-Duarte in prison while

App. 10
the latter was awaiting trial. After the co-conspirator
advised Mejia-Duarte to take the Government’s plea
offer, Mejia-Duarte responded, “I am going to trial
because I am not guilty. Anyhow, you are the only one
that knows me here, that knows we are in drug
trafficking.” Mejia-Duarte went on: “[A]nyhow, I know
your family because it was introduced to me in
Honduras.” The co-conspirator testified that he
interpreted Mejia-Duarte’s remarks, in the context of
the “drug trafficking world,” as a threat to “kill family
members.”
Mejia-Duarte contests only the District Court’s
factual finding, not that the facts, if true, satisfy the
Guidelines criteria. We review for clear error a district
court’s factual findings made pursuant to sentencing.
United States v. White, 335 F.3d 1314, 1317 (11th Cir.
2003). Mejia-Duarte claims clear error because
(1) given that the record is devoid of evidence that the
co-conspirator’s family was ever in Honduras, MejiaDuarte’s statement was nonsensical, and (2) the coconspirator’s statement was untrustworthy given that
he was hoping for a sentence reduction in exchange for
his testimony.
The Guidelines impose a two-level enhancement
when (1) a defendant “willfully . . . attempt[s] to
obstruct or impede[] the administration of justice with
respect to the investigation, prosecution, or sentencing
of the instant offense of conviction, and (2) the
obstructive conduct related to . . . the defendant’s
offense of conviction and any relevant conduct.”
USSG §3C1.1. A district court must find by a
preponderance of the evidence that factual grounds for

App. 11
an enhancement exist. United States v. Kinard, 472
F.3d 1294, 1298 (11th Cir. 2006) (per curiam).
We cannot find clear error in the District Court’s
factual finding. The co-conspirator testified how he—as
a drug trafficker—interpreted Mejia-Duarte’s
comment. Moreover, Mejia-Duarte’s statement need
not be entirely sensical for it to have the desired effect:
instilling fear in the co-conspirator to prevent him from
testifying. Having observed Mejia-Duarte’s counsel
cross-examine the co-conspirator during trial, the
District Court was aware of the co-conspirator’s
possible motivations to lie. But deference to the
factfinder reaches its zenith on questions of witness
credibility. See Calderon, 127 F.3d at 1325 (stating that
to disregard testimony as a matter of law, we must find
the testimony “unbelievable on its face” (quoting
Rivera, 775 F.2d at 1561)).
In short, the District Court did not commit clear
error in finding grounds for the obstruction-of-justice
enhancement by a preponderance of the evidence.
B.
The District Court also enhanced Mejia-Duarte’s
sentence for conduct that was beyond the scope of the
extradition order.
The parties agree that the extradition order
permitted Mejia-Duarte be tried only for events that
occurred after February 2012. The sole question before
us is whether the Treaty precludes the United States
from determining his sentence based on events that
occurred during or before that month. The meaning of

App. 12
a treaty is subject to “plenary review.” United States v.
Puentes, 50 F.3d 1567, 1575 (11th Cir. 1995).
The Treaty provides that “[n]o person shall be tried
for any crime or offense other than that for which he
was surrendered.” Honduras Treaty, supra, at art. IV.
This provision embodies what is known as the rule of
specialty, which provides that “the requesting state,
which secures the surrender of a person, can prosecute
that person only for the offense for which he or she was
surrendered by the requested state or else must allow
that person an opportunity to leave.” United States v.
Isaac Marquez, 594 F.3d 855, 858 n.1 (11th Cir. 2010)
(quoting United States v. Herbage, 850 F.2d 1463, 1465
(11th Cir. 1988)).
United States v. Garcia, 208 F.3d 1258 (11th Cir.
2000), cert. granted, judgment vacated on other
grounds, 531 U.S. 1062, 121 S. Ct. 750 (2001),
forecloses Mejia-Duarte’s argument that he could not
be sentenced for events that occurred during or before
February 2012. The Garcia defendant was indicted for
and extradited to the United States for conspiracy to
distribute drugs, for possession of those drugs, and for
use of a firearm in connection with the conspiracy and
possession. Id. at 1260. In imposing the defendant’s
sentence, the district court accounted for conduct not
charged in the indictment—namely, other drug
offenses and a homicide. Id. We upheld the sentence in
the face of the defendant’s rule-of-specialty challenge.
Id. at 1261. We explained that the rule of specialty bars
“proof of other crimes in order to exact punishment for
those other crimes” but not “proof of other crimes as a
matter germane to the determination of punishment

App. 13
for the extradited crime.” Id. We further explained that
“the consideration of other conduct in the sentencing
process is legally and conceptually a part of the
punishment for the inducted crimes and within the
limits set for those crimes.” Id. It’s that simple.
Mejia-Duarte argues that Garcia does not control
his fate. The sole basis for his argument is that Garcia
fails to discuss the text of the treaty or the timeline of
events. The first point is flatly wrong, and the second
point, if true, is irrelevant. First, Garcia quotes the
treaty, whose language is materially like the language
here. Compare id. at 1260 (“[A] person extradited shall
not be detained, tried or punished for an offense other
than that for which extradition has been granted.”
(alterations omitted) (quoting Treaty on Extradition
Between the United States and Canada, Can.-U.S., art.
XII, ¶ 1, June 28, July 9, 1974, 27 U.S.T. 983)), with
Honduras Treaty, supra, at art. IV (“No person shall be
tried for any crime or offense other than that for which
he was surrendered.”). Second, Mejia-Duarte misses
Garcia’s entire holding. Because a sentence may
account for conduct for which extradition was not
authorized, why that conduct is outside the scope of the
extradition order is irrelevant.
We add one important note before concluding.
Under our precedent, a vacated opinion like Garcia is
“void” and thus has “no legal effect whatever.” United
States v. Sigma Int’l, Inc., 300 F.3d 1278, 1280
(11th Cir. 2002) (en banc) (per curiam). Mejia-Duarte
argues only that Garcia is not factually analogous, not
that it does not bind us because the judgment was
vacated. Despite not raising the correct argument,

App. 14
however, Mejia-Duarte has raised the rule-of-specialty
issue, and we have a “duty to find and apply the correct
law.” United States v. Irey, 612 F.3d 1160, 1215 n.33
(11th Cir. 2010) (en banc). For the reasons described
below, we adopt the rule set forth in Garcia.
First, despite not being precedential, Garcia is still
persuasive. Cf. Friends of Everglades v. S. Fla. Water
Mgmt. Dist., 570 F.3d 1210, 1218 (11th Cir. 2009) (“We
are free to give statements in a vacated opinion
persuasive value if we think they deserve it.”). Garcia
was vacated by the Supreme Court pursuant to a writ
of certiorari on a wholly separate issue. See Garcia v.
United States, 531 U.S. 1062, 121 S. Ct. 750 (2001)
(mem.) (remanding to this Court for reconsideration in
light of Apprendi v. New Jersey, 530 U.S. 466, 120
S. Ct. 2348 (2000), which addresses when judicial
factfinding ancillary to sentencing violates the
Sixth Amendment). In an unpublished opinion, we
summarily reaffirmed the district court’s order on
remand. United States v. Garcia, 251 F.3d 160
(11th Cir. 2001) (unpublished table decision). Because
the opinion was vacated on grounds apart from legal
question before us today—the rule of specialty—we see
no reason not to apply Garcia. See, e.g., Jackson v. Ga.
Dep’t of Transp., 16 F.3d 1573, 1578 n.7 (11th Cir.
1994) (affording persuasive value to an opinion that
was “vacated on unrelated grounds”); Proffitt v.
Wainwright, 685 F.2d 1227, 1266!67 (11th Cir. 1982)
(same).
Second, we find nothing but support for the Garcia
rule from decisions of our sister circuits. See United
States v. Fontana, 869 F.3d 464, 471 (6th Cir.), cert.

App. 15
denied, 138 S. Ct. 490 (2017) (“[I]t is clear that the
district court’s consideration of [the defendant’s]
uncharged but related conduct did not constitute
‘punishment’ within the meaning of the . . . treaty, but
only an appropriate consideration in determining the
sentence for the crimes for which [the defendant] was
properly extradited.” (alteration omitted)); United
States v. Lomeli, 596 F.3d 496, 502 (8th Cir. 2010)
(“[T]he doctrine of specialty does not operate to bar
consideration of all pre-extradition conduct when
determining a defendant’s punishment for the
extradited offense.”); United States v. Lazarevich, 147
F.3d 1061, 1064 (9th Cir. 1998) (“Given the long history
of consideration of relevant evidence—including other
criminal behavior, the Sentencing Guidelines’ clear
mandate of such consideration, and Supreme Court
precedent, we conclude that the [t]reaty and the
extradition agreement contemplated consideration of
relevant offenses.”); United States v. Davis, 954 F.2d
182, 187 n.2 (4th Cir. 1992) (“Clearly, judicial
consideration, during sentencing, of a prior offense is
an analytically distinct concept from punishing on the
basis of that offense.”); see also United States v. MezaRojas, 480 F. App’x 784, 788 (5th Cir. 2012) (collecting
cases for the same proposition); United States v.
Adeyinka, 410 F. App’x 986, 990 (7th Cir. 2011) (same).
In short, the District Court committed no legal error
when it accounted for conduct beyond the scope of the
extradition order in imposing Mejia-Duarte’s sentence.

App. 16
III.
For these reasons, Mejia-Duarte’s conviction and
sentence are AFFIRMED.

App. 17

APPENDIX B
UNITED STATES DISTRICT COURT
Southern District of Florida
Miami Division
Case Number: 1:15-CR-20540-KMM
USM Number: 15075-104
[Filed May 23, 2018]
____________________________________
UNITED STATES OF AMERICA
)
)
v.
)
)
SERGIO NEFTALI
)
MEJIA-DUARTE (01)
)
___________________________________ )
JUDGMENT IN A CRIMINAL CASE
Counsel For Defendant: Louis Casuso
Counsel For The United States: Walter M. Norkin
Court Reporter: Glenda Powers
The defendant was found guilty as to the OneCount Indictment.

App. 18
The defendant is adjudicated guilty of these offenses:
TITLE &
SECTION

NATURE OF
OFFENSE

OFFENSE
ENDED

COUNT

21:963

Conspiracy to
distribute five
kilograms or
more of
cocaine intending
that it would be
imported into the
United States

06/30/
2014

1

The defendant is sentenced as provided in the following
pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
All remaining counts are dismissed on the motion
of the government.
It is ordered that the defendant must notify the United
States attorney for this district within 30 days of any
change of name, residence, or mailing address until all
fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court
and United States attorney of material changes in
economic circumstances.
Date of Imposition of Sentence: 5/21/2018
/s/
K. MICHAEL MOORE
United States Chief District Judge
Date:
05/22/18

App. 19
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of LIFE.
The defendant is remanded to the custody of the
United States Marshal.
*

*

*

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of Five (5) Years.
The defendant must report to the probation office in
the district to which the defendant is released within
72 hours of release from the custody of the Bureau of
Prisons.
The defendant shall not commit another federal, state
or local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any
unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
The defendant shall not possess a firearm,
ammunition, destructive device, or any other
dangerous weapon.
The defendant shall cooperate in the collection of
DNA as directed by the probation officer.

App. 20
If this judgment imposes a fine or restitution, it is a
condition of supervised release that the defendant pay
in accordance with the Schedule of Payments sheet of
this judgment.
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1.
2.

3.
4.
5.

6.
7.

The defendant shall not leave the judicial
district without the permission of the court
or probation officer;
The defendant shall report to the probation
officer and shall submit a truthful and
complete written report within the first
fifteen days of each month;
The defendant shall answer truthfully all
inquiries by the probation officer and follow
the instructions of the probation officer;
The defendant shall support his or her
dependents and meet other family
responsibilities;
The defendant shall work regularly at a
lawful occupation, unless excused by the
probation officer for schooling, training, or
other acceptable reasons;
The defendant shall notify the probation
officer at least ten days prior to any change
in residence or employment;
The defendant shall refrain from excessive
use of alcohol and shall not purchase,
possess, use, distribute, or administer any
controlled substance or any paraphernalia

App. 21

8.
9.

10.

11.

12.

13.

related to any controlled substances, except
as prescribed by a physician;
The defendant shall not frequent places
where controlled substances are illegally
sold, used, distributed, or administered;
The defendant shall not associate with any
persons engaged in criminal activity and
shall not associate with any person convicted
of a felony, unless granted permission to do
so by the probation officer;
The defendant shall permit a probation
officer to visit him or her at any time at home
or elsewhere and shall permit confiscation of
any contraband observed in plain view of the
probation officer;
The defendant shall notify the probation
officer within seventy-two hours of being
arrested or questioned by a law enforcement
officer;
The defendant shall not enter into any
agreement to act as an informer or a special
agent of a law enforcement agency without
the permission of the court; and
As directed by the probation officer, the
defendant shall notify third parties of risks
that may be occasioned by the defendant’s
criminal record or personal history or
characteristics and shall permit the
probation officer to make such notifications
and to confirm the defendant’s compliance
with such notification requirement.

App. 22
SPECIAL CONDITIONS OF SUPERVISION
Surrendering to Immigration for Removal After
Imprisonment - At the completion of the defendant’s
term of imprisonment, the defendant shall be
surrendered to the custody of the U.S. Immigration and
Customs Enforcement for removal proceedings
consistent with the Immigration and Nationality Act.
If removed, the defendant shall not reenter the United
States without the prior written permission of the
Undersecretary for Border and Transportation
Security. The term of supervised release shall be nonreporting while the defendant is residing outside the
United States. If the defendant reenters the United
States within the term of supervised release, the
defendant is to report to the nearest U.S. Probation
Office within 72 hours of the defendant’s arrival.
Unpaid Restitution, Fines, or Special Assessments - If
the defendant has any unpaid amount of restitution,
fines, or special assessments, the defendant shall notify
the probation officer of any material change in the
defendant’s economic circumstances that might affect
the defendant’s ability to pay.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$100.00

Fine
$0.00

Restitution
$0.00

**Assessment due immediately unless otherwise
ordered by the Court.

App. 23
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A. Lump sum
immediately.

payment

of

$100.00

due

Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
This assessment/fine/restitution is payable to the
CLERK, UNITED STATES COURTS and is to be
addressed to:
U.S. CLERK’S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable
immediately. The U.S. Bureau of Prisons, U.S.
Probation Office and the U.S. Attorney’s Office are
responsible for the enforcement of this order.
The Government shall file a preliminary order of
forfeiture within 3 days.

App. 24
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) penalties, and (8) costs,
including cost of prosecution and court costs.

